Case No.

IN THE SUPREME COURT
OF THE UNITED STATES OF AMERICA
TATYANA E. DREY ALEV A,
Petitioner,

ilsisi»L

VS.

ALAMEDA HEALTH SYSTEM

FILED
OCT 1 3 2020

Respondent

§iFip'mfmfFcTourtLuRsK_

On Petition for Writ of Certiorari to the California Supreme Court
Alameda County Superior Court, case No. RG19002840
Court of Appeal for the First District, Division Four
Appeal No. A157851
The California Supreme Court, Petition for Review S261831 - denied

PETITION FOR WRIT OF CERTIORARI
Tatyana E. Drevaleva, Petitioner Pro Se
3015 Clement St., Apt. 204, San Francisco, CA, 94121
415-806-9864; tdrevaleva@ gmail.com

Page 1 of 58

QUESTIONS PRESENTED.
1) Does the local Public Agency Alameda Health System (AHS) have a right to
do the following:
a) To refuse to assign a Board of Trustees and to assign a Contractor who is
not directly employed by AHS in order to process my August 20, 2018
Government claim pursuant to the California Government Code Section
911.2
b) To refuse to assign a Board of Trustees and to assign a Contractor who is
not directly employed by AHS in order to process my Application for
Leave to Submit a Late Claim pursuant to the California Government Code
Section 911.4
c) To refuse to assign a Board of Trustees and to assign a Contractor who is
not directly employed by AHS in order to deny my Application for Leave
to Submit a Late Claim pursuant to the California Government Code
Section 911.6)
d) To refuse to assign a Board of Trustees and to assign a Contractor who is
not directly employed by AHS in order to advise me to file a Petition for
Relief from Government Code Section 945.4 as outlined at Government
Code Section 946.6?
2) Does the local Public Agency AHS have a right to deny my Government claim
pursuant to Government Code Section 911.2 for injury No. 1 (accusation of the

Page 2 of 58

Department of Industrial Relations of the State of California that I was fired
from AHS for committing medical negligence towards the patient) on the
ground that I submitted this claim outside of a six month period that was
imposed by Gov. Code Section 911.2(a) if I submitted this claim within six
months after I learned about this injury? The injury itself occurred on
December 02, 2013 when Deputy of the Labor Commissioner Ms. Catherine
Daly allegedly communicated with my former Supervisor from AHS Mr.
Gilbert Harding and Labor Analyst of AHS Mr. Adam Cole, and both Harding
and Cole allegedly said to Daly that I had been fired from AHS for committing
medical negligence towards the patient. However, I didn’t know about the
December 02, 2013 alleged communication between Daly and both Harding
and Cole until March 13, 2018.1 submitted my Government claim pursuant to
Government Code Section 911.2 directly to AHS on August 20, 2018 which
was within six months after I learned about the injury.
3) Does the local Public Agency AHS have a right to deny my Government claim

for injury No. 2 (the March 30, 2018 sudden statement in AHS’s Answering
Brief in Appeal No. 17-16382 at the 9th Circuit that I was fired from AHS for
poor professional performance) asserting that this claim was submitted “late” if
I presented this claim to AHS on August 20, 2018 which was within 6 months
after learned about this injury? The injury occurred on March 30, 2018 when
AHS that was represented by the Narayan Travelstead Professional Law
Corporation wrote in its March 30, 2018 Answering Brief in Appeal No. 17Page 3 of 58

16382 that I had been fired in 2013 for poor professional performance and for
getting involved in an incident where a patient’s safety was compromised. I
actually learned about this injury on March 30, 2018 when I was served with
the Answering Brief via the electronic notification. I presented a Government
claim pursuant to Government Code Section 911.2 directly to AHS on August
20, 2018 which was within 6 months after learning about this injury.
4) If, after filing a Verified Petition for Relief from Government Code Section
945.4 at the Superior Court of Alameda County No. RG19002840 I found out
that the Public Agency AHS cheated me about the August 20, 2018
Government claim presentation requirements and the deadlines for submitting
such a claim, and if I filed a Motion to Punish AHS for cheating me about
claim presentation requirements and the deadlines for submitting such a claim,
does the Superior Court of Alameda County have a right to deny my Motion on
the basis that I didn’t cite a relevant authority that justifies relief?
5) After the Superior Court of Alameda County denied my Motion to Punish on
the basis that I didn’t cite a relevant authority that justifies relief, I found
Government Code Section 800 that authorizes the Courts to sanction the Public
Agencies for issuing arbitrary and capricious decisions. If I subsequently cited
Government Code Section 800 to the Superior Court, does the Court have a
right to still refuse to punish AHS for cheating me about the claim Government
presentation requirements and the deadlines for submitting such a claim?

Page 4 of 58

6) Also, I found the following case laws that authorize the California Courts to
estop the Public Agencies from misleading a Member of the Public about the
Government claim presentation requirements and the deadlines for submitting
such claims to the Pubic Agencies:
a) Cole v. City of Los Angeles, B011528 (1986)
b) Fredrichsen v. City of Lakewood (1971) 6 Cal.3d 353, 357, 99 Cal.Rptr. 13,
491 P.2d 805
c) Toscano v. County of Los Angeles (1979) 92 Cal.App.3d 775, 784, 155
Cal.Rptr. 146
d) Driscoll v. City of Los Angeles (1967) 67 Cal.2d 297, 305, 61 Cal.Rptr.
661,431 P.2d 245
e) DeYoung v. Del Mar Thoroughbred Club (1984) 159 Cal.App.3d 858, 862,
206 Cal.Rptr. 28
f) LaRue v. Swoap (1975) 51 Cal.App.3d 543, 551, 124 Cal.Rptr. 329.
I cited these case laws in my Motion to Vacate the Judgment. I discussed all four
elements that were described in both Driscoll v. City of Los Angeles (1967) 67 Cal.2d
297, 305, 61 Cal.Rptr. 661, 431 P.2d 245 and DeYoung v. Del Mar Thoroughbred Club
(1984) 159 Cal.App.3d 858, 862, 206 Cal.Rptr. 28, and I asked the Superior Court of
Alameda County to estop Alameda Health System from lying about the Government
claim presentation requirements and the deadlines for submitting such a claim to AHS.
The Superior Court denied my Motion to Vacate the Judgment without any explanations.

Page 5 of 58

Did the Superior Court have a right to refuse to accept into its consideration the case laws
that I cited and to still refuse to impose penalties on AHS for lying to me about the
August 20, 2018 Government claim presentation requirements and the deadlines for
submitting this claim to AHS?
7) Does the Superior Court have a right refuse to conduct a Jury Trial on the
issues f the fact at my demand in case No. RG19002840 - Verified Petition for
Relief from Government Code Section 945.4?
8) Does the Superior Court have a right to enter a Judgment without serving me
with a Proposed Judgment and without giving me an opportunity to present my
objections to the Proposed Judgment?
9) Does the Superior Court have a right to enter a Judgment in six days after
denying my Verified Petition for Relief from Government Code Section 945.4,
on the same day when the Court received the Proposed Judgment, and without
any Proof of Service of the Proposed Judgment on me?
10) Does the Superior Court have a right to process any filing of local Public
Agency Alameda Health System that failed to pay a filing fee to the Court and
that falsely claimed that it was exempt from paying a filing fee pursuant to the
California Government Code Section 6103 whereas there were no any
conditions that would justify AHS’s exemption from paying a filing fee to the
Superior Court?

Page 6 of 58

ll)Does the Superior Court have a right to deny my Petition and my Motion to
Vacate the Judgment without disclosing any reasons for the denial?

Page 7 of 58

A LIST OF ALL PARTIES TO THE PROCEEDING IN THE COURT WHOSE
JUDGMENT IS SOUGHT TO BE REVIEWED
All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is as
follows:
a) Petitioner Tatyana Evgenievna Drevaleva - Plaintiff, Appellant Pro Se
3015 Clement St., Apt. 204, San Francisco, CA, 94121
415-806-9864; tdrevaleva@ gmail.com
b) Mr. Timothy C. Travelstead, Esq.
The Narayan Travelstead Professional Law Corporation
Attorney for Alameda Health System
7901 Stoneridge Drive, Suite 230,
Pleasanton, CA, 94588
(650) 403-0150; T.Travelstead @narayantravelstead.com

i

Page 8 of 58

A CORPORATE DISCLOSURE STATEMENT AS REQUIRED BY RULE 29.6.
Not Applicable.

Page 9 of 58

A LIST OF ALL PROCEEDINGS IN STATE AND FEDERAL TRIAL AND
APPELLATE COURTS, INCLUDING PROCEEDINGS IN THIS COURT, THAT
ARE DIRECTLY RELATED TO THE CASE IN THIS COURT.
1) 3:16-cv-07414-LB at the District Court for Northern California, Drevaleva v. 1)
Alameda Health System, 2) Officers of the California Department of Industrial
Relations Ms. Catherine Daly, Ms. Joan Healy, Mr. Bobit Santos, and Mr. Eric
Rood whom I am suing in their personal capacities - dismissed with prejudice on
July 07, 2017
a) Appeal No. 17-16382 at the U.S. Court of Appeals for the 9th Circuit - the
Judgment of the District Court is affirmed on December 24, 2019, a Petition
for Panel Rehearing is denied, a Petition for Rehearing En Banc is denied as
untimely, my Petition to the En Banc Coordinator Chief Justice Hon. Sidney
Thomas to extend the time to file a Petition for Rehearing En banc is denied, a
Mandate is issued on June 08, 2020, a No File Order is in place
b) Petition for Writ of Certiorari at the U.S. Supreme Court No. 19-8012 - denied
on May 18, 2020, Petition for Rehearing denied on August 03, 2020
2) 3:20-cv-00642JD - Drevaleva v. 1) Ms. Laurel Beeler in her personal capacity as
a Magistrate Judge of the U.S. District Court for Northern California, 2) The
U.S.A., the District Court for the Northern District of California, an FTCA claim
for Harassment and Outrage, the lawsuit was dismissed on April 27, 2020 for
judicial immunity. A Motion to Vacate the Judgment is pending.

Page 10 of 58

a) 20-149-JL - Drevaleva v. The District Court for the Northern District of
California, the U.S. Court of Appeals for the Federal Circuit, Verified Petition
for Writ of Mandate to Compel the District Court for the Northern District of
California to Rule on my Motion to Vacate the Judgment in case No. 3:20-cv00642-JD
3) RG17881790 Drevaleva v. Department of Industrial Relations, the Superior Court
of Alameda County (current case) - an anti-SLAPP Motion was partially granted,
a Demurrer was sustained without leave to amend, the Complaint was dismissed
on August 18, 2018
a) Appeal No. A155165, A155187, A155899 (consolidated) (current Appeal), the
Court of Appeal for the First District, Division Four -

the Orders of the

Superior Court of Alameda County were affirmed on December 20, 2019, a
Petition for Rehearing is denied on January 16, 2020
(i)

Petition for Review No. S260407, the California Supreme Court
denied on April 15, 2020

(ii)

Petition for Writ of Mandate No. S260480, the California Supreme
Court - denied on April 15, 2020

(iii)

Petition for Writ of Mandate No. S262066, the California Supreme
Court - denied on July 08, 2020

b) Appeal No. A156248, the Court of Appeal for the First District, Division Four
- the Orders of the Superior Court of Alameda County were affirmed on

Page 11 of 58

December 20, 2019, my Petition for Rehearing was denied on January 16,
2020
(i)

Petition for Review No. S260355, the California Supreme Court denied on April 15, 2020

(ii)

Petition for Writ of Mandate No. S260491, the California Supreme
Court - denied on April 15, 2020

4) RG19002853 - Drevaleva v. Alameda Health System, the Superior Court of
Alameda County, First Verified Petition for Writ of Mandate to Compel AHS to
Issue the Improperly Withheld Public Records - dismissed with prejudice on July
08, 2019
a) Appeal No. A157784, the Court of Appeal for the First District, Division Four
Defendants’ Motion to Dismiss Appeal was granted on November 04, 2019
(i)

Petition for Review No. S259444, the California Supreme Court denied on January 15, 2020

(ii)

Petition for Writ of Mandate No. S260513, the California Supreme
Court - denied on April 15, 2020

b) Appeal No. A158299, the Court of Appeal for the First District, Division Four
Defendants’ Motion to Dismiss Appeal was granted on November 04, 2019
(i)

Petition for Review No. S259440, the California Supreme Court denied on January 15, 2020

(ii)

Petition for Writ of Mandate No. S260498, the California Supreme
Court - denied on April 15, 2020
Page 12 of 58

c) Appeal No. A158282, he Court of Appeal for the First District, Division Four
the Orders of the Superior Court that denied my Motion for Costs and
Attorney’s Fees pursuant to Government Code §6259(d) and that denied my
Motion for Costs and Attorney’s Fees pursuant to the California Code of Civil
Procedure §128.5 were affirmed on May 29, 2020; Petition for Rehearing was
denied on June 17, 2020
(i) Petition for Review No. S263089, the California Supreme Court is pending
5) RG19002840 - Drevaleva v. Alameda Health System, the Superior Court of
Alameda County, Verified Petition for an Order Relieving from Government Code
Section 945.4 - dismissed with prejudice on May 23, 2019
a) Appeal No. A157851, the Court of Appeal for the First District, Division Four
the Order of the Superior Court was affirmed on March 20, 2020; Petition for
Rehearing is denied on April 16, 2020; Petition for Mandatory Rehearing was
denied on April 16, 2020
b) Petition for Review No. S261831, the California Supreme Court - denied on
July 08, 2020
6) RG19010635 - Drevaleva v/ 1) Alameda Health System, 2) The Narayan
Travelstead Professional Law Corporation, Complaint for Libel. Abuse of
Process, and the Intentional Infliction of Emotional Distress for saying that I was
fired from Alameda Health System for poor professional performance, the
Superior Court of Alameda County, the anti-SLAPP Motion was granted on July
23, 2019, a Notice of Appeal was filed, a case is on an automatic stay
Page 13 of 58

a) Appeal No. A158862 - on August 31, 2020, the Court of Appeal for the First
District, Division Four affirmed the July 23, 2019 Order of the Superior Court
that granted the anti-SLAPP Motion, and on August 31, 2020 the Court of
Appeal for the First District, Division Four declared me a vexatious litigant
pursuant to C.C.P. §391(b)(1) - (3)
(i)

Petition for Writ of Mandate No S260437, the California Supreme
Court - withdrawn on Match 05, 2020

(ii)

Petition for Review No. S263359, the California Supreme Court
pending

(hi)

Petition for Writ of Mandate No. S263545, the California Supreme
Court - denied on August 19, 2020

(iv)

Petition for Writ of Mandate No. S264253, the California Supreme
Court - Vexatious litigant application denied on September 09, 2020

(v)

Petition for Writ of Mandate No. S264348, the California Supreme
Court - Vexatious litigant application denied on September 11, 2020

7) RG19039413

Drevaleva v. Alameda Health System, the Superior Court of

Alameda County, Second Verified Petition for Writ of Mandate to Compel AHS
to Issue the Improperly Withheld Public Records - dismissed with prejudice on
June 11, 2020
a) Appeal No. A160688, the Court of Appeal for the First District, Division Four
- pending

Page 14 of 58

8) RG20061108 - Drevaleva v. Gilbert Harding, Jr., Complaint for Libel, the
Superior Court of Alameda County -pending.
9) RG20066898 - Drevaleva v. Alameda Health System, Complaint for Unpaid
Wages and Wrongful Termination, the Superior Court of Alameda County
pending.

Page 15 of 58

TABLE OF CONTENTS.
Opinions below

17.

Jurisdiction

20

Constitutional and statutory provisions involved

21

Statement of the case

22

Reasons for granting the Writ

55

Conclusion

56

|

Page 16 of 58

INDEX TO APPENDICES
Appendix A - Order of the California Supreme Court that denied my Petition for
Review No. S261831, July 08, 2020
Appendix B - Opinion of the Court of Appeal for the First District, Division Four
in Appeal No. A157851 (unpublished), March 20, 2020
Appendix C - Order of the Court of Appeal for the First District, Division Four
that denied my Petition for Rehearing in Appeal No. A157851, that denied my Petition
for Mandatory Rehearing, and that denied my Motion to Supplement the Record on
Appeal, April 16, 2020
Appendix D - Order of the Superior Court of Alameda County in case No.
RG19002840 Drevaleva v. Alameda Health System that denied my Motion to Punish
Alameda Health System, April 11, 2020
Appendix E - Order of the Superior Court of Alameda County that denied my
Verified Petition for Relief from Government Code Section 945.4 in case No.
RG 19002840 Drevaleva v. Alameda Health System, May 17, 2019
Appendix F - Judgment Entered in case No. RG19002840 Drevaleva v. Alameda
Health System, May 23, 2019

Page 17 of 58

Appendix G - Order of the Superior Court of Alameda County that denied my
Motion to Vacate the Judgment in case No. RG19002840 Drevaleva v. Alameda Health
System, July 11, 2019.

Page 18 of 58

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix A
to the petition and is
[ ] reported at; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the court appears at Appendix B to the petition and is
[ ] reported at; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.

Page 19 of 58

JURISDICTION
[x] For cases from state courts:
The date on which the highest state court decided my case was July 08, 2020.
A copy of that decision appears at Appendix A.
[ ] A timely petition for rehearing was thereafter denied on the following
date:

and a copy of the order denying rehearing appears at Appendix .

[ ] An extension of time to file the petition for a writ of certiorari was
granted to and including (date) on (date) in Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

Page 20 of 58

A.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Not Applicable.

Page 21 of 58

STATEMENT OF THE CASE
On March 11, 2013,1 received an Offer Letter from Alameda Health System that
offered me a 0.8 FTE (part-time and benefit-eligible) job as a Telemetry Monitor
Technician for the 8 hour shifts with the rate of pay $21.48/hour, with the applicable shift
differentials 11% for evenings, 15.5% for nights & 5% for weekends. I accepted the job
offer. Also, I signed a document that I agreed to be represented by the Union. However, I
didn’t make a copy of that document, therefore, there is no any copy of this document on
the file. On April 01, 2013,1 started my probationary period. In April and a half of May
2013,1 worked for four 8 hour periods (32 hours per week) as I had been promised by the
March 11, 2013 letter.
Starting the middle of May 2013, Manager Mr. Clerve informed me that 8 hour
evening shifts were no longer available, and he offered me the only option to work for
three 12 hour night shifts per week which was 36 hours per week. I accepted this offer
because I needed a job.
After I started to work for three 12 hour shifts per week which was 36 hours a
week, I discovered that AHS:
1) didn’t pay me overtime at the rate xl.5 to my base pay rate $21.48/hour for
four hours that exceeded an 8 hour shift, see Labor Code §510(a)
2) didn’t pay me the shift differentials as follows: 11% for evenings, 15.5% for
nights & 5% for weekends

Page 22 of 58

3) claimed that I was not affiliated to the Union
4) kept me as a Part Time employee despite working for 36 hours a week
5) gave me two 15 minute paid rest periods per a 12 hour shift instead of three 15
minute paid rest periods .
6) didn’t give me 10 minute breaks every hour because I was constantly
observing video display screens
In June and July 2013, I approached Manager Clerve multiple times, and I asked
about unpaid both shift differentials and overtime, about not received 15 minute breaks,
about the denial of my affiliation to the Union, and I asked to transfer me to a full time
job because I was actually working full time. Clerve promised to think about it but
nothing changed.
In July 2013, I was working a night shift, and I was observing a cardiac monitor
and the EKG of Patient Mr. X. Initially, I observed a Normal Sinus Rhythm (NSR.) At
approximately 5 AM, I witnessed how Nurse Kim showed up in a hallway next to the
cardiac monitoring station, and I heard how she reported to Charge Nurse Beverly that
Patient Mr. X. was unconscious in his room, and he didn’t respond to touch and
conversation. In my opinion, Nurse Kim was moving too slowly. I didn’t understand how
could she leave an unconscious patient alone in his room and not to perform a
Cardiopulmonary Resuscitation (CPR.) However, I witnessed how Nurse Kim was
standing in a hallway speaking to Charge Nurse Beverly while Patent Mr. X. was left
unconscious in his room. At the time when Nurse Kim was speaking to Charge Nurse
Page 23 of 58

Beverly, I was observing the Normal Sinus Rhythm (NSR) on Mr. X’s EKG. A few
minutes later, I saw some changes on Mr. X’s EKG. I documented these changes as
artifacts and reported them to both Kim and Beverly and to Doctor Mr. Sina Rachmani
who agreed with my EKG interpretation that these changes were artifacts and not
Ventricular Tachycardia (a lethal cardiac rhythm.)
Charge Nurse called the Code Blue Team that came and started a CPR. When the
Code Blue Team arrived to the patient’s room, they disconnected the patient from my
cardiac monitor and connected their own cardiac monitor to the patient. Therefore, I was
no longer able to continue observing Mr. X’s EKG.
Unfortunately, Mr. X. passed away. In the morning after my night shift, I reported
the incident with Mr. X to my co-worker Ms. Lawson and to Director of Step Down Unit
Mr. Harding. Subsequently, I reported the incident to the AHS’s Committee three times
at three Root Cause Analysis (RCA) meetings to many Doctors and Nurses. I
demonstrated Mr. X’s NSR and the changes that I had documented, and I explained why
I interpreted these changes as Artifacts and not as Ventricular Tachycardia. The
Committee agreed with me. After the incident with the patient, I was allowed to continue
performing my duties as a Monitor Technician, my professional certificates were not
revoked, and I received a good Letter of Reference from Assistant Manager Mr.
Masangkay, “Ms. Tatyana Drevaleva ... is a very hard working and dedicated staff and
an important part of our team. She pays attention to great detail and always makes certain
that all our telemetry monitored patients are doing okay. She immediately notifies the
Page 24 of 58

appropriate channels as situations arise. All I can say is that she will be an asset wherever
she may go.”
On August 25, 2013,1 approached a newly appointed Director of Step Down Unit
Mr. Harding, and I asked him the questions about unpaid both overtime and shift
differentials, the denial of my affiliation to the Union, missed breaks, and I asked to
transfer me to a full time job because I was actually working full time.. Harding promised
to think but nothing changed.
On September 05, 2013,1 emailed a letter to Harding with these questions. I asked
Harding to compensate me for unpaid overtime shift differentials, missed 15 minute
breaks, to transfer me to a full time job, and to assist me to pay for college. On September
07, 2013, in twenty minutes after the beginning of my shift, Harding gave me a
Termination Letter that said, “This letter constitutes notice that you are being released
from your employment as a Monitor Technician effective September 7, 2013. This action
is being taken due to the discrepancies between acceptable employment standards and
those you exhibited during your employment with us. Should you have questions or
concerns, please contact Labor Analyst Adam Cole at 510-535-7604. Sincerely, Gilbert
Harding” (ER 17.)
On September 07, 2013, I asked both Harding and Cole to give me the examples
of these alleged discrepancies between acceptable employment standards and those I
allegedly exhibited during my employment with AHS. Harding’s exact answer was, “We
are not talking about it right now.”
Page 25 of 58

On September 16, 2013, I submitted both a retaliation and unlawful termination
claim and a wage claim to the Department of Industrial Relations ((DIR), the Division of
Labor Standards Enforcement (DLSE.) Deputy of the Labor Commissioner Mr. Bobit
Santos was assigned to investigate my wage claim. Deputy of the Labor Commissioner
Ms. Catherine Daly was assigned to investigate my retaliation and unlawful termination
claim.
After being fired from AHS, I obtained a copy of my Personnel File, and I learned
that the reason of the termination of my employment was ‘Probationary Release” (ER
26.) In the Personnel File, AHS checked the box that I was ineligible for rehire but didn’t
explain why.
After being fired from AHS, I was receiving the Unemployment Insurance
Compensation. AHS listed a reason of the termination of my employment to the
Employment Development Department (EDD) as “Probationary Release” (ER 28.)
On January 07, 2014, Deputy Santos denied my wage claim asserting that “the
Division does not have jurisdiction over claims for overtime, rest period premiums,
differential pay, or waiting time penalties for county employees.”
On June 16, 2014, I received a letter from Deputy Daly where she asserted that I
had been properly fired from AHS for committing medical negligence towards the
patient. Daly didn’t explain what patient s/he was and what exactly wrong I did that
constituted medical negligence. I was very surprised. While working at AHS, nobody

Page 26 of 58

told me that I had committed medical negligence towards the patient. While working at
AHS, I didn’t receive a verbal warning, I was not written up, and I received a good Letter
of Reference from Assistant Manager Mr. Masangkay. After being fired from AHS, my
professional certificate of an EKG Technician was not revoked, and I was not reported to
the appropriate State Board. On June 18, 2016,1 responded to Daly’s Letter. I described
the incident that occurred with patient Mr. X. even though I was not sure if it was the
patient whom Ms. Daly meant in her June 16, 2014 letter. I described in detail what
happened to Mr. X. during that night shift, and I provided Daly with a list of witnesses
including Dr. Sina Rachmani to whom I reported the patient’s Electrocardiogram and
who agreed with my EKG interpretation, my co-worker Ms. Doniea Lawson to whom I
reported the patient’s EKG, and Director of Step Sown Unit Mr. Harding to whom I
reported the patient’s EKG and the incident with the patient.
Afterwards, I didn’t hear from Daly at all for over two years. In 2016, I emailed
Daly and asked her to give me a time frame when she will finish her investigation of my
retaliation and unlawful termination claim. Daly informed me that she would not rule in
my favor because the evidence showed that AHS had terminated my employment for a
legitimate, non-retaliatory reason, and that I couldn’t show pretext. Daly kept insisting
that I had been fired from AHS for committing medical negligence towards the patient. I
started to communicate with Daly’s Supervisor Ms. Joan Healy. I asked Healy to give me
the explanations and evidence regarding Daly’s allegation of the medical negligence
towards the patient. Healy refused, and she didn’t give me any explanations and evidence

Page 27 of 58

regarding Daly’s allegation of the medical negligence towards the patient. Healy
requested my home postal address. She promised to send me a Determination Letter in
main, and she informed me that I would be eligible to appeal the Determination within 10
days from the issuance of the Determination Letter with Director of DIR. In December
2016, I provided Healy with my home postal address twice, so DIR could send me a
Determination Letter, and so I could appeal the Determination with Director of DIR. I
never received the Determination Letter in mail;
Not having received the Determination Letter in mail, on December 29,2016 I
filed a lawsuit at the U.S. District Court for the Northern District of California No. 3:16cv-07414-LB Drevaleva v. 1) Alameda Health System, 2) The Department of Industrial
Relations. During the process of litigation of my Original and Amended Complaints, my
former employer AHS never said that I had been fired for medical negligence towards the
patient. AHS only claimed lack of subject-matter jurisdiction, lack of the Diversity of
Citizenship jurisdiction, and failure to state the claim upon which relief could be granted.
See AHS’s Motion to Dismiss my Original Complaint No. 3:16-cv-07414-LB at (ER 3039), see AHS’s Motion to Dismiss my Amended Complaint at (ER 40-57.)
During the litigation of my lawsuit No.3:16-cv-07414-LB, Dir’s Counsel Ms.
Doris Ng emailed me DIR’s December 29, 2016 Determination Letter where DIR wrote,
“Your involvement with medical negligence, whether peripheral or not, also gave
Alameda Health a compelling reason to terminate you.” However, during the litigation of
my lawsuit No. 3:16-cv-07414-LB, neither DIR nor its Officers said that I had committed
Page 28 of 58

medical negligence towards the patient, and both DIR and its Officers never presented
any explanations and evidence regarding DIR’s allegation of the medical negligence.
On July 07, 2017, the Hon. Judge Laurel Beeler entered a Judgment in favor of
Defendants AHS and DIR’s Officers. I filed a Notice of Appeal No. 17-16382. During
the litigation of my Appeal at the 9th Circuit, AHS suddenly claimed in its March 30,
2018 Answering Brief (ER 59-96) that I had been fired for poor professional
performance. See (ER 68), “Shortly after Appellant was hired at AHS as a Monitor
Technician, AHS found she was involved in an incident in which the safety a patient was
compromised. AHS released from her probationary status for her poor performance, not
for any complaints about her working terms and conditions.”
See (ER 70), “AHS hired Appellant as a Monitor Technician on April 1, 2013. ...
Shortly after Appellant was hired, she was involved in an incident in which the safety a
patient was compromised while she was performing her duties. ... AHS investigated the
incident and interviewed Appellant on three separate occasions. ... On September 4, AHS
decided to release Ms. Drevaleva from her employment at AHS. ... On September 7,
2013, AHS sent Appellant a letter informing her that her employment with AHS was
ending due to the “discrepancies between acceptable employment standards and those
[she] exhibited during [her] employment.” ...”
On November 08, 2018,1 filed a lawsuit at the Superior Court of Alameda County
No. RG17881790 Drevaleva v. Department of Industrial Relations. I listed two causes of
action: 1) Libel regarding DIR’s allegation of the medical negligence, 3) Professional
Page 29 of 58

Negligence during the investigation of my both retaliation and unlawful termination
claim and my wage claim.
On March 09, 2018, DIR served me with an anti-SLAPP Motion and a Demurrer
via the U.S. mail. I actually received the anti-SLAPP Motion and the Demurrer on March
13, 2018. With its anti-SLAPP Motion, DIR presented a sworn Declaration of Deputy
Daly (ER 21-24.) Read Daly’s Declaration (ER 21-22),
“(9) I interviewed Gilbert Harding, Plaintiffs former supervisor, and Adam Cole,
a labor analyst for Alameda Health System on December 2, 2013.
10) Harding and Cole admitted that Alameda Health System terminated Plaintiffs
employment on September 7, 2013, but maintained it was because Plaintiff failed to meet
acceptable employment standards.
(11) Specifically, Harding and Cole claimed that Plaintiffs alleged negligence
seriously harmed a patient.”
Also, during the litigation of the lawsuit No. RG17881790, I obtained the Public
Records from DIR that were related to DIR’s processes of investigation of my retaliation
and unlawful termination claim and my wage claim. See (ER 19), “12-02-2013 Spoke
w/Director Gilbert Harding & Labor Analyst Adam Cole. Firing appears justified due to
failure to timely read chart & notify medical provider.,..”

Page 30 of 58

“06-17-2014 I prepared and emailed a rebuttal request. Given the underlying
circumstances - CPL’s [Complainant’s - T.D.] extreme negligence - there is not a lot she
can do to overcome Respondent.”
Therefore, let us repeat again the facts of the case. On Mach 13, 2018, I learned
about Injury No. 1 which was the alleged December 02, 2013 communication between
Deputy Daly and AHS’s Supervisor Harding and Labor Analyst Cole, and allegedly
Harding and Cole said to Daly that I had been fired for medical negligence towards the
patient. Again, the alleged communication between Daly and both Harding and Cole
occurred on December 02, 2013but I learned about it only on March 13, 2018.
Also, on March 30, 2018 I learned about Injury No. 2 which was AHS’s statement
in the March 30, 2018 Answering Brief in Appeal No. 17-16382 that I had been fired
from AHS for poor professional performance.
Therefore, I suffered from two separate substantial injuries to my good name and
my professional reputation. Please, see the definition of the “injury” in Government Code
Section 810.8 (ER 150; lines 18-21),

u u

Injury” means death, injury to a person, damage

to or loss of property, or any other injury that a person may suffer to his person.
reputation, character, feelings or estate, of such nature that it would be actionable if
inflicted by a private person.”
On August 20, 2018, I submitted a Government claim directly to AHS (ER 1196.) I submitted this claim pursuant to Government Code Section 911.2, “(a) A claim

Page 31 of 58

relating to a cause of action for death or for injury to person or to personal property or
growing crops shall be presented as provided in Article 2 (commencing with Section 915)
not later than six months after the accrual of the cause of action. A claim relating to any
other cause of action shall be presented as provided in Article 2 (commencing with
Section 915) not later than one year after the accrual of the cause of action.”
Therefore, my August 20, 2018 claim was timely for Injury No. 1 because the
claim was submitted within 6 months after I learned about this Injury on March 13, 2018.
I am reminding again that the Injury No. litself occurred on December 02, 2013but I
learned about it only on March 13, 2018.
My August 20, 2018 claim was timely for Injury No. 2 because the claim was
submitted within 6 months after I learned about this injury on March 30, 2018. The Injury
No. 2 itself occurred on March 30, 2018.
My August 20, 2018 claim to AHS was not for money and damages. Read again
the plain language of Government Code Section 911.2 (above) that authorizes a Member
of the Public to submit “a claim relating to a cause of action for ...injury.” In my August
20, 2018 claim, I wrote (ER 12), “I am respectfully asking AHS to provide me with
answers on the following questions:
1) Describe in detail a nature of “discrepancies between acceptable employment
standards and those [I] exhibited during [my] employment with [AHS].”
Provide documentary evidence of the alleged discrepancies.

Page 32 of 58

2) Describe in detail and provide documentary evidence regarding the allegation
of “failure to timely read chart and notify the medical provider”
3) Describe in detail and provide documentary evidence of the alleged “poor
[professional] performance.”
I followed the plain instructions that were given in a template Government claim
form (ER 11), “4. Total amount of claim” and “10. Itemization of claim.” I calculated the
amount of my lost salary and benefits as a result of the termination of my employment
from AHS in 2013, and I presented it to AHS’s attention, see (ER 14-15.)
With my August 20, 2018 claim to AHS, I included AHS’s two Motions to
Dismiss my lawsuit No. 3:16-cv-07414-LB (ER 30-57), AHS’s Answering Brief at the
9th Circuit (ER 59-96), Daly’s Declaration (ER 21-24), Daly’s notes (ER 19),
Termination Letter from AHS (ER 17),the Personnel Record from AHS (ER 26), and the
notes from the Employment Development Department (ER 28.)
On September 4, 2018, I received an email from Litigation Specialist of Beta
Healthcare Group Mr. Mark Cachia-Riedl (ER 98) that said, “As the Agent of Alameda
Health System, notice is hereby given that the Claim that you presented to the Clerk of
the Hospital Authority, Alameda Health System on August 20, 2018,is being returned
because it was not presented within six months after the event or occurrence, as required
by law (see Sections 901 and 911.2 of the Government Code). Because the Claim was not
presented within the time allowed by law, no action was taken on the Claim.”

Page 33 of 58

Further, the September 4, 2018 letter advised me to file an application for leave to
present a late claim pursuant to Government Code Sections 911.4 to 912.2, inclusive, and
Section 946.6.
On September 20, 2018,1 submitted a “Request for Leave to Present a Late Claim
under Government Code §911.2 to §912.2 inclusive, and §946.6” (ER 101-102.) On
October 24, 2018,1 received an email from Mr. Cachia-Riedl that said (ER 104), “As the
agent for Alameda Health System, notice is hereby given that the Application that you
presented to the Clerk of the Hospital Authority, Alameda Health System, on September
20, 2018, for leave to present a Claim after expiration of the time allowed by law for
doing so, was denied.” Further, Mr. Cachia-Riedl advised me to file a Petition for Relief
from Government Code Section 945.4 as outlined at Government Code Section 946.6.
On January 16, 2018,1 filed a Verified Petition for Relief from Government Code
Section 945.4 (Government Code Section 946.6) at the Superior Court of Alameda
County No. RG19002840 Drevaleva v. Alameda Health System (ER 1-9.) After filing
this Petition, I realized that AHS cheated me about the Government claim presentation
requirements and the deadlines for filing such a claim.
Read Government Code Section 945.4 (ER 111-112), ’’Except as provided in
Sections 946.4 and 946.6, no suit for money or damages may be brought against a
public entity on a cause of action for which a claim is required to be presented in
accordance with Chapter 1 (commencing with Section 900) and Chapter 2 (commencing
with Section 910) of Part 3 of this division until a written claim therefor has been
Page 34 of 58

presented to the public entity and has been acted upon by the board, or has been
deemed to have been rejected by the board, in accordance with Chapters 1 and 2 of
Part 3 of this division.”
Read Government Code Section 946.6 (ER 112), “(a) If an application for leave to
present a claim is denied or deemed to be denied pursuant to Section 911.6, a petition
may be made to the court for an order relieving the petitioner from Section 945.4. The
proper court for filing the petition is a superior court that would be a proper court for the
trial of an action on the cause of action to which the claim relates.”
I realized that the Superior Court couldn’t give me any relief from Government
Code Section 945.4 because my August 20, 2018 claim to AHS was not for money and
damages, and the claim was not presented to the Board of Trustees of AHS and was not
rejected by the Board of Trustees. My August 20, 2018 claim was rejected by a
Contractor that was employed by the Beta Group and who was no way related to the
Board of Trustees of AHS. Therefore, I realized that AHS cheated me about the claim
presentation requirements. Also, I already explained that my August 20,2018 claim for
both Injury No. 1 and No. 2was timely because I submitted it within 6 months after I
learned about these Injuries.
On March 14, 2018, I filed a Motion to Punish AHS for cheating me about the
claim presentation requirements and the deadlines for submitting such a claim (ER 107122.) In this Motion, I raised two questions before the Superior Court (ER 108-109):

Page 35 of 58

r
1) Shall the Superior Court of Alameda County “relieve” the Petitioner from
Government Code Section 945.4 if the Petitioner did not bring a claim for
money or damages to AHS, and AHS did not present the Petitioner’s claim to
the Board of Directors or other governing body, and a Contractor-Attorney
working for AHS denied the Petitioner’s claim instead of the Board?
2) Shall the Superior Court of Alameda County impose monetary and other
penalties on Alameda Health System for misleading the Petitioner and forcing
the Petitioner to file an unnecessary Petition for Relief from Government Code
Section 945.4?
Further, I wrote (ER 112-113),
1) My initial August 20, 2018 claim to AHS had the only purpose to give me both
the explanation and the evidence regarding DIR’s allegation of the medical negligence.
On August 20, 2018,1 did not present a claim for money and damages to AHS. I’ve never
said that AHS itself accused me in committing medical negligence. Using other words, I
only asked AHS whether it is true that Mr. Harding and Mr. Cole said to Ms. Daly that I
had been fired for medical negligence. Until I have direct evidence that the officers of
AHS said to Ms. Daly that I had been fired for medical negligence, I have no right to
bring a suit for money and damages against AHS
2) My August 20, 2019 claim to AHS was rejected by the Contractor-Attorney Mr.
Cachia-Riedl and not by the Board of Directors AHS or other governing body of AHS.”

Page 36 of 58

I asked the Superior Court (ER 113-114),
1) “To impose sanctions on AHS for misleading me, frivolously denying my
August 20, 2018 Claim, and forcing me to spend my time and effort to file and litigate a
Petition for Relief from Government Code Section 945.4
2) To order AHS to pay both the costs of this litigation and the Attorney’s Fees
3) To order AHS to present the documents regarding its Public Entity’s status
from both the Office of the Secretary of the State of California Mr. Alex Padilla, and
from the Clerk of Alameda County
4) To issue a Writ of Mandate compelling AHS to give me the answer on the
following question: Did both Mr. Gilbert Harding and Mr. Adam Cole say to Deputy of
the Labor Commissioner Ms. Catherine Daly in December 2013 that I had been fired for
committing medical negligence towards the patient?
5) To order AHS to pay for my Discovery such as Depositions. I want to depose
the following officers of AHS: Mr. Gilbert Harding, Mr. Adam Cole, and Ms. Dana
Littlepage. Also, at the Court’s discretion. I am asking to order AHS to pay for my
Attorney who will conduct the Discovery
6) At the Court’s discretion, I am asking to impose the punitive damages at AHS
for frivolously dismissing my August 20, 2018 claim, for failure to follow the proper
chain such as to present my claim to the Board and not to a Contractor-Attorney, and for

Page 37 of 58

forcing me to commence an unnecessary and frivolous lawsuit such as to file a Petition to
Relieve me from Government Code §945.4
7) I am demanding a Jury Trial pursuant to Gov. Code §946.6(a) at the expense of
Alameda Health System and any other relief that the Court deems just and proper
8) Depending on the results of the Discovery, I preserve the right to file a Motion
to Amend my Petition.”
On March 26, 2018, AHS opposed my both Petition for Writ of Mandate and my
Motion to Punish (ER 123-130) asserting that the relief that I was seeking in the Petition
(an AHS’s explanations regarding the allegations of medical negligence and poor
professional performance) was not cognizable under Government Claims Act (ER 124.)
AHS also asserted that 1) Government Code Section 946.6 was not available to the
wrongful termination claims, 2) that I failed to meet the requirements of Government
Code Section 946.6, and 3) that I didn’t have inadvertence, mistake, and excusable
neglect, and 4) that I couldn’t bring a claim for wrongful termination against a public
agency.
Also, AHS asserted that, as a Pro Se litigant, I was not eligible for an award of
Attorney’s Fees citing Argaman v. Ratan (1999) 73 Cal.App.4th 1173, 1177 and Elwood
v. Drescher (2006) 456 F.3d 943 (ER 129). AHS also asserted that I couldn’t demand
punitive damages from AHS because it is a Public Agency citing Gov. Code, §818;
Runyon v. Superior Court (1986) 187 Cal.App.3d 878, 880-881 (ER 129.) AHS also

Page 38 of 58

falsely attempted to justify its alleged status as a “public agency” pursuant to the
California Health & Safety Code § 101850 subd. (a)(2)(C) (ER 128.) Also, AHS asserted
that, because it was a “public agency”, it couldn’t be liable for wrongful termination of
my employment (ER page 128, line 27 to page 128, line 5.)
On March 29, 2019, I replied to AHS’s Opposition (ER 132-141.) I described
again the scope of my August 20,2018 claim to AHS, and I specified again the questions
that I asked AHS in my claim (ER 133),
1) “Is it true that Mr. Gilbert Harding and Mr. Adam Cole said to Ms. Catherine
Daly that I had been fired from AHS for medical negligence towards the patient?
2) In the March 30, 2018 Answering Brief that AHS claimed that I had been fired
for poor professional performance. I want to get the explanation and the evidence from
AHS regarding this allegation.”
I explained that I had followed Mr. Cachia-Riedl’s directions to file a Verified
Petition for Relief from Government Code Section 945.4 as directed by Gov. C.
§946.6.However, I also followed the provisions of C.C.P. §1005 (ER 135),
“(a) Written notice shall be given, as prescribed in subdivisions (b) and (c), for the
following motions:
(9) Notice of Hearing of Application for Relief pursuant to Section 946.6 of the
Government Code.”

Page 39 of 58

I
I explained that the Superior Court couldn’t give me relief from Government Code
Section 945.4 because the prerequisites for this section were not met. Because AHS
misled me about the claim presentation requirements and the deadlines for submitting
such a claim, I asked the Superior Court to compel AHS to answer the following question
(ER 136): Is it true that Mr. Gilbert Harding and Mr. Adam Cole said to Ms. Catherine
Daly on December 02, 2013 that I had been fired from AHS for committing medical
negligence towards the patient?
Further, I informed the Superior Court that on March 12, 2019 I filed a Complaint
against both AHS and the Narayan Travelstead Professional Law Corporation for Libel
about the allegation of the poor professional performance in AHS’s March 30,2018
Answering Brief (ER 136.) Further, I described the litigation against AHS at the District
Court and at the 9th Circuit, and I presented my objections to AHS’s statements in its
Opposition to my Petition for Relief from Government Code Section 945.4 and my
Motion to Punish (ER 136-141.)
On April 11, 2019, the Hon. Judge Frank Roesch denied my Motion to Punish on
the ground that “Petitioner has not cited authority under which the Court may order the
relief sought” (ER 142.)
On April 23, 2019, I filed an Opening Brief on the merits of my Verified Petition
for Relief from Government Code Section 945.4 (ER 144-177.) In this Brief, I discussed
the following topics.

Page 40 of 58

I discussed that, pursuant to Government Code Section 911.2, I had a right to
submit a claim for an injury to a Public Agency (ER 150.) I also discussed the definition
of the word “injury” pursuant to Government Code Section 810.8 (ER 150.) Definitely,
both allegations about the medical negligence towards the patient and about the poor
professional performance severely injured “because I actually suffered from a loss of
reputation and severely damaged feelings. Also, because I was unable to continue my
work at AHS, I lost my salary, benefits, and therefore I lost my estate that I could have
been purchased a long time ago. Also, I lost many other opportunities such as education,
obtaining a better job, creating a family, etc.” (ER 151.)
I argued that my August 20, 2018 claim for Injury No. 1 and Injury No. 2 was
timely pursuant to Government Code Section 901 (ER 150-151), “For the purpose of
computing the time limits prescribed by Sections 911.2,911.4,945.6 , and 946.6 , the
date of the accrual of a cause of action to which a claim relates is the date upon which the
cause of action would be deemed to have accrued within the meaning of the statute of
limitations which would be applicable thereto if there were no requirement that a claim
be presented to and be acted upon by the public entity before an action could be
commenced thereon. However, the date upon which a cause of action for equitable
indemnity or partial equitable indemnity accrues shall be the date upon which a defendant
is served with the complaint giving rise to the defendant's claim for equitable indemnity
or partial equitable indemnity against the public entity.”

Page 41 of 58

Because the plain language of Gov. C. §901 contains the word “deem”, I argued
that I was not supposed to present a claim immediately after the alleged December 02,
2013 conversation between Daly and both Harding and Cole because I didn’t know about
it. I submitted my August 20, 2018 claim to AHS within 6 months after I learned about
the alleged December 02, 2013 conversation between Daly and both Harding and Cole.
Also, I submitted my August 20, 2018 claim to AHS within 6 months after I learned
about the Injury No. 2on March 30, 2018, See my explanations at (ER 151-152.)
Also, I described what the proper process of evaluation my claim by the Board of
Trustees of AHS should be according to Government Code Section 912.6(a) (ER 152.) I
argued that my August 20, 2018 claim was not presented to the Board of Trustees of
AHS. Therefore, Contractor Cachia-Riedl didn’t have a right to deny my August 20, 2018
claim (ER 152-153.)
Further, I cited Government Code Section 800 as an authority to punish AHS for
the arbitrary and capricious decision to deny my August 20, 2018 claim and to advise me
to file a Petition for Relief from Government Code Section 945.4 (ER 153-154.) Read the
plain language of Gov. C. §800, “(a) In any civil action to appeal or review the award,
finding, or other determination of any administrative proceeding under this code or under
any other provision of state law, except actions resulting from actions of the Department
of General Services, if it is shown that the award, finding, or other determination of the
proceeding was the result of arbitrary or capricious action or conduct by a public entity or
an officer thereof in his or her official capacity, the complainant if he or she prevails in
Page 42 of 58

the civil action may collect from the public entity reasonable attorney's fees, computed at
one hundred dollars ($100) per hour, but not to exceed seven thousand five hundred
dollars ($7,500), if he or she is personally obligated to pay the fees in addition to any
other relief granted or other costs awarded.
(b) This section is ancillary only, and shall not be construed to create a new cause
of action.
(c) The refusal by a public entity or officer thereof to admit liability pursuant to a
contract of insurance shall not be considered arbitrary or capricious action or conduct
within the meaning of this section.”
I cited the case laws that described Gov. C. §800 (ER 154-157):
1) Olson v. Hickman, [Civ. No. 12982. Court of Appeals of California, Third
Appellate District. May 23, 1972]
2) Plumbing etc. Employers Council v. Quillin, [Civ. No. 39307. Court of
Appeals of California, First Appellate District, Division Two. November 29,
1976]
3) Gustafson v. Zolin, [No. C023542. Third Dist. Sep 25, 1997] citing Ferris v.
Los Rios Community College Dist. (1983) 146 Cal. App. 3d 1 [194 Cal. Rptr.
16] and other case laws.
Therefore, Gov. C. §800 directed the Courts (ER 157):

Page 43 of 58

1) To award Attorney’s Fees for the arbitrary and capricious action or conduct of
the public entity at the maximum amount of $7500
2) Any other relief granted or other costs awarded.
Further, I asked the Superior Court of Alameda County to provide me with the
following relief (ER 157-159):
1) To issue a Writ of Mandate to compel AHS to answer in writing on the
questions 1 through 5 mentioned above
2) To compel AHS to pay all costs of the litigation related to filing and litigating
my both Petition for an Order Relieving me from Government Code Section
945.4, the Petition for a Writ of Mandate A157007 at the Court of Appeal for
the First District
3) If AHS argues that I obtained a fee waiver and therefore I am not obligated to
pay the costs of the action, this is not true. Read C.C.P. §1033.5(c)(1), “Costs
are allowable if incurred, whether or not paid”
4) To schedule a Jury Trial at AHS’s expense
5) To conduct Oral Depositions at AHS’s expense of the following individuals:
a) Mr. Gilbert Harding
b) Mr. Adam Cole
c) Ms. Dana Littlepage
d) Ms. Catherine Daly

Page 44 of 58

6) To assign a student Attorney to me for the purpose of assisting me to conduct
Oral Depositions. As an alternative, I am respectfully asking the Superior
Court of Alameda County to order AHS to pay for my Attorney for the purpose
of conducting Oral Depositions
7) If during Oral Depositions Mr. Harding and Mr. Cole still refuse to answer the
question whether they said to Ms. Daly that I had been fired for medical
negligence, I am respectfully asking Hon. Judge Frank Roesch to present this
issue to the Grand Jury and to allow the Jury to issue a verdict whether Mr.
Harding and Mr. Cole said to Ms. Daly that I had been fired for medical
negligence
8) To award me with Attorney’s Fees at the maximum amount of $7500 pursuant
to Section 800 for the arbitrary and capricious behavior of AHS....”
On May 02, 2019, AHS filed an Answering Brief (ER 178-185.) that was
repetitive to AHS’s Opposition to both Petition for Writ of Mandate and my Motion to
Punish (ER 123-130.) Defendants asserted again that (ER 179) 1) Government Code
Section 946.6 does not apply to wrongful termination claims, 2) Petitioner fails to meet
the requirements of Section 946.6, 3) My failure was not through inadvertence, surprise,
or excusable neglect, and 4) I can’t bring a claim for wrongful termination against a
public agency as a matter of law.
On May 08, 2019,1 filed a Reply Brief (ER 187-208.) I asked the Superior Court
to punish AHS using Government Code Section 800 (ER 193):
Page 45 of 58

1) To punish AHS for its failure to present my claim to the Board of Trustees
2) To punish AHS for forcing me to file a Petition for an Order Relieving me from
Government Code Section 945.4 even though my August 20, 2018 claim was not for
money and damages
3) To punish AHS for claiming that my both claim for the allegation of the
medical negligence towards the patient and the allegation of the poor professional
performance were submitted to AHS late. In fact, they were not late for the reasons I
described in my Opening Brief.
I cited the case law Scott v. County of Los Angeles [Civ. No. 50578. Court of
Appeals of California, Second Appellate District, Division Two. September 20, 1977]
that described Government Code Section 911.2 and that described a situation when a
claimant presented a claim only after the claimant learned about the injury.
Further, I cited the case laws Shively v. Bozanich (2003) 31 Cal. 4th 1230, 12461247, Hebrew Academy of San Francisco v. Goldman (2007) 42 Cal.4th 883, 894, and
Christoff v. Nestle USA, Inc. (2009) 47 Cal.4th 468, 483 that described that a deadline to
file a claim started only after the Plaintiff first learned about the injury (ER 195-196.) I
argued again that I first learned about Injury No. 1 only on March 13, 2018. Therefore,
the date from which I should calculate the deadline for submitting a claim to Alameda
health System was March 13, 2018 and not December 02, 2013 when Dally allegedly

Page 46 of 58

spoke to both Harding and Cole and when they allegedly said to her that I had been fired
for medical negligence towards the patient.
I argued that, under the circumstances of my case, I was entitled for a jury Trial on
the issues of the fact, see Scott v. County of Los Angeles, [Civ. No. 50578. Court of
Appeals of California, Second Appellate District, Division Two. September 20, 1977]
(ER 199-200.) Also, I cited Roberts v. County of Kern, F006951 (Court of Appeal, Fifth
District, California, 1987) (ER 200), “A trial court's order granting or denying a petition
under section 946.6 is subject to the same standard of review used in relief from default
proceedings. (Viles v. State of California (1967) 66 Cal.2d 24, 29, 56 Cal.Rptr. 666, 423
P.2d 818.)
“Where, as here, the trial court denies the motion for relief from default, the strong
policy in favor of trial on the merits conflicts with the general rule of deference to the
trial court's exercise of discretion. [Citation.] Unless inexcusable neglect is clear, the
policy favoring trial on the merits prevails. [Citation.] Doubts are resolved in favor of the
application for relief from default [citation], and reversal of an order denying relief
results [citation].”
Also, see my citation of County of Sacramento v James (ER 201), “[C.C.P. ]
Section 592 provides: ‘In actions for the recovery of specific, real, or personal property,
with or without damages, or for money claimed as due upon contract, or as damages for
breach of contract, or for injuries, an issue of fact must be tried by a jury, unless a jury
trial is waived, or a reference is ordered, as provided in this Code. Where in these cases
Page 47 of 58

there are issues both of law and fact, the issue of law must be first disposed of. In other
cases, issues of fact must be tried by the Court, subject to its power to the order any such
issue to be tried by a jury, or to be referred to a referee, as provided in this Code.’
I asked the Hon. Judge Frank Roesch to schedule a Jury Trial on the issues of the
fact and to let the Jury determine whether on December 02, 2013 both Harding and Cole
said to Daly that I had been fired for medical negligence towards the patient.
Further, I objected to AHS’s assertion that the statement about the poor
professional performance in AHS’s Answering Brief was privileged pursuant to Civil
Code Section 47(b.) See my discussion at (ER 202-206.) I also opposed AHS’s assertions
that it couldn’t be liable for wrongful termination of my employment because it was a
Public Agency, see my discussion at (ER 206-207.)
On May 17, 2019, the Parties Tatyana Drevaleva and AHS’s Attorney Mr.
Travelstead arrived at the hearing on the merits of my Petition. I had a very severe
headache, and I was unable to argue. Instead of re-scheduling the hearing on the merits of
my Petition, and instead of giving me an opportunity to recover from my headache, the
Hon. Judge Frank Roesch denied my Petition without any explanations about why this
decision had been reached (ER 213.) The Judge also didn’t satisfy my request for a Jury
Trial on the issues of the fact, and the Judge refused to provide me with all relief that I
was seeking (compelling AHS to provide me with the explanations and evidence
regarding the allegations of medical negligence and poor professional performance, etc.)

Page 48 of 58

On May 23, 2019, just in six days after the Judge denied my Petition, AHS
submitted a Proposed Judgment (ER 214-215.) The Hon. Frank Roesch signed (ER 217218) entered a Judgment (ER 220-222) on the same day May 23, 2019 without giving me
an opportunity to respond and to present my objections to the Proposed Judgment.
On June 06, 2019,1 filed a Motion to Vacate the Judgment (ER 223-233) pursuant
to C.C.P. §663. In this Motion, I cited Cole v. City of Los Angeles, B011528 (1986) (ER
225-227), “A governmental entity may be estopped from asserting noncompliance with
the statutory claim filing requirements where a claimant has been misled by the entity's
agents with regard to the procedural or time requirements of the claim statutes.
(Fredrichsen v. City of Lakewood (1971) 6 Cal.3d 353, 357, 99 Cal.Rptr. 13, 491 P.2d
805; Toscano v. County of Los Angeles (1979) 92 Cal.App.3d 775, 784, 155 Cal.Rptr.
146.)

“[Fjour elements must be present in order to apply the doctrine of equitable

estoppel: (1) the party to be estopped must be apprised of the facts; (2) he must intend
that his conduct shall be acted upon, or must so act that the party asserting the estoppel
had a right to believe it was so intended; (3) the other party must be ignorant of the true
state of facts; and (4) he must rely upon the conduct to his injury.” {Driscoll v. City of
Los Angeles (1967) 67 Cal.2d 297, 305, 61 Cal.Rptr. 661, 431 P.2d 245; DeYoung v. Del
Mar Thoroughbred Club (1984) 159 Cal.App.3d 858, 862, 206 Cal.Rptr. 28.)

In order

to prove the element of ignorance of the true state of facts, the evidence must show not
only that the party claiming the estoppel did not have actual knowledge of the true facts
but that he did not have notice of facts sufficient to put a reasonably prudent person upon

Page 49 of 58

inquiry, the pursuit of which would have led to actual knowledge; the convenient or
ready means of acquiring knowledge being the equivalent of knowledge.

(LaRue v.

Swoap (1975) 51 Cal.App.3d 543, 551, 124 Cal.Rptr. 329.)
The existence of an estoppel is generally a question of fact for the trial court
whose determination is conclusive on appeal unless the opposite conclusion is the only
one that can be reasonably drawn from the evidence.

{Driscoll v. City of Los Angeles,

supra, 67 Cal.2d at p. 305, 61 Cal.Rptr. 661, 431 P.2d 245.)”
I argued that clearly satisfy all four elements.
Element 1. AHS knew that I had presented my August 20, 2018 claim on time.
Also, this claim was not for money and damages. Regardless, AHS asserted that the
claim had been presented late, ignored my explanations that the claim was presented on
time, and failed to present this claim to the Board of Trustees. AHS assigned a Contractor
to process the claim. The Contractor denied the claim and forced me to file a Petition for
an Order Relieving me from Government Code Section 945.4.
Element 2. AHS’s actions were not due to inadvertence, mistake, or excusable
neglect. These actions were intentional, and they were aimed to harm me and to prevent
me from obtaining the information that I could later use in my pending lawsuits against
AHS. AHS knew very well that there was no any record about the allegation of the
medical negligence, and there was no any record regarding the allegation of the poor
professional performance. Therefore, in order to prevent me from obtaining the truthful

Page 50 of 58

information, AHS refused to process my August 20, 2018 claim and lied that the claim
had been presented “late.”
Element 3. Despite my thorough explanation that my both claims about the Injury
No. 1 (the allegation of the medical negligence) and the Injury No. 2 (the allegation about
the poor professional performance) were presented on time, AHS recklessly disregarded
my explanations and pushed me into the Court proceeding. I had no other choice rather
than to file a Verified Petition RG19002840.
Element 4. AHS relied on its ignorance of the fact that my August 20, 2018 claim
was filed on time. The purpose was to prevent me from obtaining the correct information
about the communication between Mr. Harding, Mr. Cole, and Ms. Daly and about the
September 04, 2013 letter of Ms. Littlepage.
Also, in my Motion to Vacate the Judgment I argued that the Superior Court didn’t
have a right to process any AHS’s filing because AHS failed to pay a filing fee, AHS
failed to obtain a Fee Waiver, and AHS fraudulently asserted that it was exempt from
paying a filing fee pursuant to Government Code Section 6103 whereas no exemption
applied (ER 228-230.)
I cited the plain language of Gov. Code §6103,
“(a) Neither the state nor any county, city, district, or other political subdivision,
nor any public officer or body, acting in his or her official capacity on behalf of the state,
or any county, city, district, or other political subdivision, shall pay or deposit any fee for
Page 51 of 58

the filing of any document or paper, for the performance of any official service, or for the
filing of any stipulation or agreement that may constitute an appearance in any court by
any other party to the stipulation or agreement. This section does not apply to civil jury
fees or civil jury deposits. This section does not apply to the State Compensation
Insurance Fund or where a public officer is acting with reference to private assets or
obligations that have come under that officer’s jurisdiction by virtue of his or her office,
or where it is specifically provided otherwise. No fee shall be charged for the filing of a
confession of judgment in favor of any of the public agencies named in this section....”
Gov. Code §6103(a) explicitly says what Public Entities are relieved from paying
filing fees:
1) The State of California
2) Any County of the State of California
3) Any City of the State of California
4) Any District of the State of California
5) Any other political subdivision of the State of California
6) Any public officer or body, acting in his or her official capacity on behalf of
the state, or any county, city, district, or other political subdivision.
Also, Gov. Code §6103 specifies the condition for relieving the mentioned above
Public Entities from paying filing fees:
1) for the performance of any official service

Page 52 of 58

2) for the filing of any stipulation or agreement that may constitute an appearance
in any court by any other party to the stipulation or agreement
3) for the filing of a confession of judgment in favor of any of the public agencies
named in this section
4) to defray the costs of reporting services by court reporters
5) to probate referees, as described in Part 12 (commencing with Section 400) of
Division 2 of the Probate Code.
In the lawsuit No.RG 19002840, AHS didn’t qualify for the exemption forpaying
the filing fee because:
1) Alameda Health System is a local Public Entity that doesn’t fit into the
description of the Public Entities in Government Code §6103(a). It is not a
State, not a County, not a City, not a District,, and not a Political Subdivision
2) In this lawsuit, Alameda Health System doesn’t act on behalf of the state, or
any county, city, district, or other political subdivision.
On June 17, 2019, AHS opposed my Motion to Vacate the Judgment (ER 234237) on the ground that AHS believed that my August 20, 2018 claim was for wrongful
termination and that I presented my claim late (ER 236.) Also, AHS asserted that my
August 20, 2018 claim where I asked AHS to explain its statement in the March 30, 2018
Answering Brief that I was fired for poor professional performance was not a cognizable
claim pursuant to the Government Claims Act (ER 236.)

Page 53 of 58

On June 25, 2019, I replied to AHS’s Opposition (ER 238-242.) I asked the
Superior Court (ER 241-242):
1) To vacate his unlawful May 23, 2019 Judgment
2) To enter a new Judgment that estops AHS from lying to me that I submitted

my August 20, 2018 claim late
3) That schedules a Jury Trial on the issues of the facts of this case at AHS’s

expense
4) That imposes sanctions on AHS for lying to me about the claim presentation

requirements and the deadlines for submitting such a claim
5) That compels AHS to give me the answers about the allegation of the medical

negligence and about the allegation of the poor professional performance
6) That orders AHS to pay for deposing Mr. Harding, Mr. Cole, Ms. Daly, and
Ms. Littlepage
7) That imposes other sanctions on AHS pursuant to Government Code Section
800
8) That imposes all other sanctions on AHS that the trial Court deems just and

proper.
On July 11, 2019, the Superior Court denied my Motion to Vacate the Judgment
without any explanations (ER 243.)
On March 20, 2020, the Court of Appeal for the First District, Division Four
affirmed the decision of the Superior Court (Appendix B.)
Page 54 of 58

REASONS FOR GRANTING THE WRIT.
Pursuant to Government Code Section 911.2,1 had a right to submit a Government
claim to the Pubic Agency for an injury to my reputation. The plain language of
Government Code Section 911.2 doesn’t say that a necessary condition to submit a claim
to a Public Agency is only if the claim is for money and damages.
I am entitled to get the explanations and the evidence regarding DIR’s allegation
that on December 2, 2013 Deputy Daly spoke to both Harding and Cole, and they said to
her that I had been fired for medical negligence towards the patient. The Department of
Industrial Relations denied my retaliation and unlawful termination claim on the ground
that I had committed medical negligence towards the patient. However, no one Record
within AHS says that I had committed medical negligence towards the patient.
Both AHS and DIR intentionally and in bad faith keep me away from obtaining
relief in a form of getting reinstated back to work at AHS and being awarded with
monetary damages for retaliation and unlawful termination of my employment from AHS
in 2013.
I am entitled to get the details of AHS’s statement in its Answering Brief that I
was fired for poor professional performance.
All California Courts denied to give me relief. My only option is to petition to the
U.S. Supreme Court.

Page 55 of 58

CONCLUSION.
The Petition for Writ of Certiorari should be granted.
Respectfully submitted,

s/ Tatyana Drevaleva
Petitioner-Appellant Pro Se
3015 Clement St., Apt. 204, San Francisco, CA, 94121
415-806-9864; tdrevaleva@ gmail.com
Date: October 06, 2020

Page 56 of 58

VERIFICATION.
I, a Pro Se Petitioner Tatyana Drevaleva, am a Party to this action. I have read the
foregoing Petition and know its contents. The facts alleged in the Petition are within my
own knowledge and I know these facts to be true.
I declare under the penalty of perjury and under the Federal laws and under the
laws of the State of California that all foregoing is true and correct. Executed at San
Francisco, CA on October 06, 2020.

Respectfully submitted,

s/ Tatyana Drevaleva
Petitioner-Appellant Pro Se
3015 Clement St., Apt. 204, San Francisco, CA, 94121
415-806-9864; tdrevaleva@gmail.com
Date: October 06, 2020.

Page 57 of 58

